Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





    EARLY IMPLEMENTATION 

     REVIEW OF QUALIFIED 

  INDEPENDENT CONTRACTOR 

   PROCESSING OF MEDICARE 

  APPEALS RECONSIDERATIONS





                    Daniel R. Levinson

                     Inspector General 


                       July 2008

                     OEI-06-06-00500

                 Office of Inspector General

                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
  Δ         E X E C U T I V E                                               S U M M A R Y


                                     OBJECTIVE
                                     To determine the extent to which Qualified Independent Contractors
                                     (QIC) followed timeliness, correspondence, and data entry requirements
                                     for Medicare Part A and Part B claims reconsiderations received from
                                     May 2005 to July 2006.


                                     BACKGROUND
                                     Section 521 of the Medicare, Medicaid, and SCHIP Benefits
                                     Improvement and Protection Act of 2000, P.L. No. 106-554, requires
                                     that QICs conduct the second level of Medicare appeals, called
                                     “reconsiderations,” for Medicare Part A and Part B claims. The Centers
                                     for Medicare & Medicaid Services (CMS) contracted with two QICs that
                                     began processing Part A reconsiderations in May 2005 and with two
                                     QICs that began processing Part B reconsiderations in January 2006.

                                     For this study, we determined whether QICs processed reconsiderations
                                     within 60 days, as required, by analyzing information contained in the
                                     Medicare Appeals System (the “appeals system”) for all reconsideration
                                     cases through July 2006. We determined whether QICs sent
                                     correspondence to appellants as required and whether QICs entered
                                     accurate information in the appeals system by reviewing case files for a
                                     randomly selected sample of reconsiderations. We also conducted
                                     structured interviews with CMS, the four QICs, and staff who conduct
                                     Administrative Law Judge hearings at the third level of Medicare
                                     appeals.


                                     FINDINGS
                                     Part A Qualified Independent Contractors met the 60-day processing
                                     timeframe; however, Part B contractors did not for 58 percent of
                                     reconsiderations. One Part B QIC did not process 74 percent of
                                     reconsiderations within 60 days, and the other Part B QIC did not
                                     process 40 percent of reconsiderations within 60 days.
                                     Qualified Independent Contractors did not meet all correspondence
                                     requirements but did include the appropriate content in
                                     reconsideration decision letters. Twenty-six percent of case files that
                                     we reviewed did not have documentation substantiating that QICs sent
                                     letters acknowledging appeal requests. Twelve percent of case files
                                     were missing reconsideration letters; however, when present, QICs’


OEI-06-06-00500   E A R LY I M P L E M E N TAT I O N R E V I E W   OF   QUALIFIED INDEPENDENT CONTRACTOR PROCESSING   OF   R E C O N S I D E R AT I O N S   i
    E X E C U T I V E                                      S U            M M A R Y


                                     decision letters included all required content. Forty percent of case files
                                     did not have documentation substantiating that QICs sent processing
                                     delay notifications for Part B cases that were decided late.
                                     Qualified Independent Contractors entered inaccurate information
                                     into the Medicare Appeals System for 54 percent of
                                     reconsiderations. Fifty-four percent of reconsiderations contained at
                                     least one item of inaccurate information in the appeals system for
                                     appellant type, reconsideration request date, acknowledgment letter
                                     date, decision date, and/or decision type.
                                     Factors contributing to deficiencies in timeliness, correspondence,
                                     and data entry include case transfer delays, unexpected case
                                     volume, and appeals system challenges. Three of the four QICs
                                     reported that lags in case file transfers from Affiliated Contractors that
                                     process claims affected adjudication timeframes and other operational
                                     activities. Both Part B QICs explained that unexpected case volume
                                     affected their ability to process cases on time. Additionally, all QICs
                                     reported that, during the early months of implementation, the appeals
                                     system was frequently unavailable or slow, did not have the ability to
                                     generate required correspondence, did not support resource
                                     management activities, and did not interface with databases that
                                     contained claims information, which affected timeliness and overall
                                     workflow.


                                     RECOMMENDATION
                                     During our review, the Part A QICs had been processing
                                     reconsiderations for 15 months and the Part B QICs for 7 months. We
                                     found that, during this timeframe, QICs had challenges meeting
                                     timeliness, correspondence, and data entry requirements. CMS made
                                     several changes to improve the reconsiderations process, including
                                     facilitating some improvements in the appeals system, restructuring the
                                     Part B workload into three jurisdictions, and recompeting the contracts
                                     among all QICs. However, given QICs’ deficiencies cited in this report
                                     and the potential impact of these deficiencies on the overall Medicare
                                     appeals process, we recommend that CMS:
                                     Take further action to ensure that QICs meet timeliness,
                                     correspondence, and data entry requirements. CMS currently
                                     employs several mechanisms to monitor QICs, which include weekly
                                     reviews of the appeals system data and annual site visit reviews. CMS
                                     may consider several options for augmenting these mechanisms to

OEI-06-06-00500   E A R LY I M P L E M E N TAT I O N R E V I E W   OF   QUALIFIED INDEPENDENT CONTRACTOR PROCESSING   OF   R E C O N S I D E R AT I O N S   ii
    E X E C U T I V E                                      S U            M M A R Y


                                     ensure that QICs meet Federal requirements for processing
                                     reconsiderations. For example, CMS could add metrics, such as error
                                     rates, to its annual reviews to further assess the extent to which QICs
                                     meet correspondence and data entry requirements. In addition, to
                                     better ensure that appeals system data are accurate, CMS could
                                     validate these data during annual reviews. CMS could also evaluate
                                     the costs and feasibility of enabling the appeals system to extract
                                     information from databases that contain claims data, thereby reducing
                                     the need for manual data entry. Lastly, CMS could monitor the length
                                     of time that it takes Affiliated Contractors to transfer paper case files to
                                     QICs, to better ensure that QICs have a reasonable number of days to
                                     adjudicate reconsiderations.


                                     AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                                     RESPONSE
                                     CMS concurred with our recommendation to take further action to
                                     ensure that QICs meet timeliness, correspondence, and data entry
                                     requirements and outlined efforts it has planned or has already taken to
                                     address it. These efforts include awarding a contract to a private entity
                                     that will conduct its own performance evaluation to determine QICs’
                                     adherence to Federal requirements; enabling the appeals system to
                                     interface with databases that contain claims data; and including
                                     financial incentives in its contracts with the new Medicare
                                     Administrative Contractors to forward case files to the QICs within
                                     4 days for 85 percent of cases.

                                     CMS also noted that, subsequent to the time period covered by our
                                     review, March 2005– July 2006, it had made several changes to the
                                     second level of Medicare appeals, which culminated in the award of
                                     three new Part B QIC contracts. CMS reported that all three
                                     Part B QICs completed over 98 percent of reconsiderations on a timely
                                     basis during October–March 2008. CMS provided a table that outlines
                                     timeliness information for all three Part B QICs during this period.




OEI-06-06-00500   E A R LY I M P L E M E N TAT I O N R E V I E W   OF   QUALIFIED INDEPENDENT CONTRACTOR PROCESSING   OF   R E C O N S I D E R AT I O N S   iii
Δ   I NA T B R L O E D
    T                     UOC     FT    I   CO ON N T E N T S



              EXECUTIVE SUMMARY .....................................i



              INTRODUCTION ........................................... 1



              F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10 

                         Part A QICs met timeliness requirements; Part B QICs
                         did not . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10 


                         QICs did not meet correspondence requirements . . . . . . . . . . . . . 11 


                         QICs entered inaccurate data into the appeals system . . . . . . . . . 12 


                         Various factors contributed to processing deficiencies . . . . . . . . . 14 




              R E C O M M E N D A T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16 

                         Agency Comments and Office of Inspector General Response . . . 16 




              A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19 

                         A: Point Estimates and Confidence Intervals . . . . . . . . . . . . . . . . 19 


                         B: Agency Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22 




              A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26 

  Δ         I N T R O D U C T I O N



                                     OBJECTIVE
                                     To determine the extent to which Qualified Independent Contractors
                                     (QIC) followed timeliness, correspondence, and data entry requirements
                                     for Medicare Part A and Part B claims reconsiderations received from
                                     May 2005 to July 2006.


                                     BACKGROUND
                                     Medicare beneficiaries, providers, and suppliers of health care services
                                     can appeal certain decisions related to their Medicare claims.
                                     Currently, the Medicare administrative appeals process includes four
                                     levels. This study focuses on the second level, QIC reconsiderations.

                                     Section 521 of the Medicare, Medicaid and SCHIP Benefits
                                     Improvement and Protection Act of 2000 (BIPA), P.L. No. 106-554,
                                     made significant changes to the Medicare claims appeal process.1
                                     Among other things, it required that QICs conduct the second level of
                                     Medicare appeals, called “reconsiderations,” for Medicare Part A and
                                     Part B claims.2 The revised appeals process had a phased
                                     implementation, which took place in fiscal years (FY) 2005 and 2006.
                                     The Centers for Medicare & Medicaid Services (CMS), the agency that
                                     oversees QIC operations, obligated about $40 million for QIC activities
                                     during this timeframe.3 Given the changes required by the BIPA, the
                                     Office of Inspector General (OIG) sought to determine whether QICs
                                     met processing requirements in the early phase of implementation from
                                     May 2005 to July 2006.
                                     Medicare Administrative Appeal Process
                                     Medicare Part A provides coverage for institutional care, such as
                                     inpatient hospital care, skilled nursing facility care, home health
                                     services, and hospice care. Medicare Part B provides coverage for the
                                     cost of noncustodial care, such as physician services, outpatient hospital
                                     services, and medical equipment and supplies. Under Medicare Parts A
                                     and B, a beneficiary can obtain health care services from any provider




                                     1 The BIPA was later modified by sections 931, 933, 939, and 940 of the Medicare 

                                     Prescription Drug, Improvement, and Modernization Act of 2003 (MMA), P.L. No. 108-173.

                                     2 42 U.S.C. § 1395ff(c)(1) (as amended by BIPA, § 521(a)).

                                     3 Budget estimates for FYs 2005 and 2006 provided to OIG by CMS.





OEI-06-06-00500   E A R LY I M P L E M E N TAT I O N R E V I E W   OF   QUALIFIED INDEPENDENT CONTRACTOR PROCESSING   OF   R E C O N S I D E R AT I O N S   1
    I N T R O D 
U C T                                 I O N


                                     that is qualified and chooses to participate in the Medicare program.4
                                     Generally, to receive payment for the provision of health care services,
                                     the provider or beneficiary can submit a claim for payment to the
                                     appropriate Affiliated Contractor.5 For this report, the term “Affiliated
                                     Contractor” includes fiscal intermediaries (for all Part A claims and
                                     certain Part B claims) or carriers (for most claims under Part B). If the
                                     Affiliated Contractor determines that the claim for medical care is not
                                     covered under Medicare because it is invalid or incomplete or otherwise
                                     appears to be improper, it denies the claim.6 When the Affiliated
                                     Contractor denies a claim, it notifies the provider or beneficiary of the
                                     denial and offers the opportunity to appeal the denial.7
                                     There are four distinct administrative levels of appeal;

                                     • Level One: Affiliated Contractor redeterminations,

                                     • Level Two: QIC reconsiderations,

                                     • Level Three: Administrative Law Judge hearings, and

                                     • Level Four: Medicare Appeals Council hearings.

                                     If these administrative appeal levels have been exhausted, appellants
                                     may bring their cases to a Federal district court.
                                     Qualified Independent Contractors
                                     CMS awarded four QIC contracts to conduct Parts A and B 

                                     reconsiderations for FYs 2005 and 2006. 


                                     Part A QICs. On May 1, 2005, two QICs, First Coast Service Options
                                     (FCSO) and Maximus, began processing Part A reconsiderations.

                                     Part B QICs. On January 1, 2006, Quality2Administrators began
                                     processing Part B reconsiderations out of two separate locations
                                     (hereafter referred to as the Q2A East and the Q2A West). The Q2A
                                     East was responsible for Part B reconsiderations for 26 States, the
                                     District of Columbia, and 2 U.S. territories. The Q2A West was
                                     responsible for Part B reconsiderations for the other 24 States and

                                     4 42 U.S.C. § 1395a.

                                     5 MMA (P.L. No. 108-173 § 911(d)) requires that Medicare Administrative Contractors 

                                     (MAC) gradually assume the work currently performed by Affiliated Contractors, including 

                                     fiscal intermediaries, carriers, and durable medical equipment regional carriers. CMS 

                                     began replacing Affiliated Contractors in October 2005 and is expected to complete the 

                                     transition by October 1, 2011 (42 CFR § 421.400).

                                     6 Social Security Act § 1869.

                                     7 42 CFR § 405.921(a)(2). 





OEI-06-06-00500   E A R LY I M P L E M E N TAT I O N R E V I E W   OF   QUALIFIED INDEPENDENT CONTRACTOR PROCESSING   OF   R E C O N S I D E R AT I O N S   2
    I N T R O D                   U C T                I O N


                                     3 U.S. territories, as well as reconsiderations for durable medical
                                     equipment, prosthetics, and supplies claims.8
                                     Separate from the reconsideration contracts, CMS also awarded a
                                     contract to the Q2A to provide administrative services in support of
                                     QICs. Hereafter, we refer to this contractor as the administrative QIC.
                                     Processing Requirements
                                     Timeliness requirements. Pursuant to section 1869(c)(3)(C)(i) of the
                                     Social Security Act, QICs are required to render reconsideration
                                     decisions within 60 calendar days from the dates that they receive
                                     timely filed reconsideration requests and send written notices of the
                                     decisions to the appellants.9 10
                                     Correspondence requirements. In addition, pursuant to Federal
                                     regulations and/or QIC’s Umbrella Statement of Work, QICs are
                                     required to send appellants the following correspondence:
                                     •	     Acknowledgment Letters: Within 14 calendar days of the receipt
                                            of a request, QICs must send the appellant written
                                            acknowledgment of the appeal.11 The acknowledgment letter
                                            must inform the appellant that the appeal has been received and
                                            provide instructions for obtaining further information.12
                                     •	     Reconsideration Decision Letters: Within 60 days from the date of
                                            receipt of a reconsideration request, QICs must send a written
                                            letter notifying the appellant of the reconsideration decision.13

                                     8 For FY 2007, however, CMS restructured the Part B workload into three jurisdictions and
                                     recompeted the contracts among all QICs. The Q2A South (formerly Q2A East) began
                                     handling Part B reconsiderations for 16 States and 2 U.S. territories; FCSO began
                                     processing Part B reconsiderations for 34 States, 3 U.S. territories, and the District of
                                     Columbia; and Rivertrust Solutions began processing all durable medical equipment
                                     reconsiderations.
                                     9 This report does not address expedited appeal reconsiderations, which have different
                                     processing timeline requirements (Social Security Act § 1869(c)(3)(C)(iii)(I)).
                                     10 Under 42 CFR §§ 405.970(b)(1) and (3), decision deadlines may be extended if the QIC
                                     grants an appellant’s request for an extension of the 180-day filing deadline and/or if a
                                     party to the reconsideration submits additional evidence after the request for
                                     reconsideration is filed.
                                     11 CMS, “Qualified Independent Contractor Umbrella Statement of Work,” section III.A.2,
                                     September 1, 2005.
                                     12 Ibid.
                                     13 Pursuant to 42 CFR § 405.970(c)(1), QICs must send appellants one of three documents
                                     within 60 days: a decision letter, a dismissal notice, or an option to escalate their case to
                                     the next level. Our evaluation looked at whether QICs sent appellants any one of these
                                     documents within 60 days.



OEI-06-06-00500   E A R LY I M P L E M E N TAT I O N R E V I E W   OF   QUALIFIED INDEPENDENT CONTRACTOR PROCESSING   OF   R E C O N S I D E R AT I O N S   3
  I N T R O D                 U C T                I O N

                                             This letter must contain a statement indicating whether the
                                             decision is favorable or partially favorable, i.e., when a QIC
                                             overturns prior appeal decisions, or unfavorable, i.e., when a QIC
                                             upholds prior appeal decisions. Other content requirements for
                                             this kind of notification include a summary of the facts in the
                                             case; an explanation of how pertinent laws, regulations, coverage
                                             rules, and CMS policies apply to the facts of the case; and
                                             information concerning the appellant’s right to an Administrative
                                             Law Judge hearing.14 If QIC decides to dismiss the appellant’s
                                             request for reconsideration, it must send a letter notifying the
                                             appellant of the dismissal within 60 days from the date of receipt
                                             of the reconsideration request.15
                                     •	     Written Notification of Processing Delay and the Right to
                                            Escalate: If QIC fails to reach a decision within 60 days, it must
                                            send a written notice of the delay that offers the appellant the
                                            option to escalate the case to the Administrative Law Judge
                                            hearing level (these notifications must be sent within 60 days of
                                            receiving a reconsideration request).16 To trigger the escalation,
                                            the appellant must respond with a written request.17 However,
                                            for those cases in which the appellant does not request escalation,
                                            Federal regulations do not set forth additional processing timeline
                                            requirements.

                                     Data entry requirements and the Medicare Appeals System. According to
                                     QIC’s Umbrella Statement of Work, CMS requires QICs to enter and
                                     track information regarding the disposition of each reconsideration in
                                     the Medicare Appeals System (the “appeals system”).18 The appeals
                                     system was originally designed to store and facilitate the transfer of
                                     case-specific data across the four levels of administrative appeal.19 In
                                     September 2003, CMS contracted with CGI Federal to develop and



                                     14 42 CFR § 405.976(b). 

                                     15 42 CFR § 405.970(c)(3).

                                     16 42 CFR § 405.970(c)(2).

                                     17 If the appellant requests escalation, then, within 5 days, the QIC must either finish

                                     processing the reconsideration or escalate the case to the Administrative Law Judge
                                     hearing level (42 CFR § 405.970(d–e)).

                                     18 CMS, “Qualified Independent Contractor Umbrella Statement of Work,” Section II.A., 

                                     September 2005. 

                                     19 Department of Health and Human Services (HHS), “Report to Congress: Plan for the 

                                     Transfer of Responsibility for Medicare Appeals,” March 2004. 




OEI-06-06-00500   E A R LY I M P L E M E N TAT I O N R E V I E W   OF   QUALIFIED INDEPENDENT CONTRACTOR PROCESSING   OF   R E C O N S I D E R AT I O N S   4
    I N T R O D                   U C T                I O N


                                     maintain the appeals system. Currently, Level Two and Level Three
                                     use the appeals system.20
                                     The appeals system contains many data fields, which CMS requires
                                     QICs to populate with accurate information from reconsiderations.21
                                     Administrative Law Judge staff can view QIC-entered reconsideration
                                     data in the appeals system for cases that progress to that hearing level.
                                     CMS Oversight
                                     According to CMS, it uses the following mechanisms to monitor and
                                     assess QIC performance:22
                                     Weekly reviews of Appeals System data. CMS analyzes information
                                     contained in the appeals system on a weekly basis to determine whether
                                     QICs are processing reconsiderations within 60 days and to ensure that
                                     QICs are sending required correspondence, such as acknowledgment
                                     and decision letters, to appellants.

                                     Annual onsite reviews. Each fiscal year, CMS representatives visit QICs
                                     to determine compliance with program requirements and to assess
                                     overall QIC performance. During what are typically 5-day visits, CMS
                                     reviews paper case files for a random sample of reconsiderations to
                                     determine whether: acknowledgment letters were sent on time; decision
                                     letters were sent on time; decision letters contained required content,
                                     such as decision explanations and directions for filing further appeals;
                                     and case files contained complete information. CMS also reviews QIC
                                     decisions during the course of annual performance reviews. Findings
                                     from these evaluations are compiled in a written report.

                                     Quality assurance program. In addition to these mechanisms, CMS
                                     requires each QIC to have an internal quality assurance program, to
                                     include regular case reviews and an overall self-assessment. On an
                                     annual basis, QICs submit to CMS written reports summarizing
                                     self-assessment results.
                                     Related Work
                                     In January 2002, prior to the full implementation of the BIPA, OIG
                                     released a report that analyzed the potential impact of the BIPA on the

                                     20 Staff from CMS’s Medicare Enrollment and Appeals Group reported that, as of
                                     December 2006, there were no current plans to implement the Medicare appeals system
                                     (the appeals system) at the remaining appeals levels.
                                     21 CMS, “List of Required/Non Required Medicare Appeals System Fields,” November 2005.
                                     22 OIG interview with staff from CMS’s Medicare Enrollment and Appeals Group,
                                     December 2006.



OEI-06-06-00500   E A R LY I M P L E M E N TAT I O N R E V I E W   OF   QUALIFIED INDEPENDENT CONTRACTOR PROCESSING   OF   R E C O N S I D E R AT I O N S   5
    I N T R O D                   U C T                I O N


                                     Medicare administrative appeals process.23 OIG found, among other
                                     things, that the former process for Administrative Law Judge appeals
                                     was backlogged and overwhelmed. The report recommended a
                                     modernization of the appeals process. OIG also recommended that HHS
                                     develop a training program for all reviewers at all levels of appeals to
                                     ensure common knowledge, understanding, and information about the
                                     appeals process. HHS concurred with these recommendations.

                                     In a report released in October 2004, the Government Accountability
                                     Office (GAO) evaluated HHS’s and the Social Security
                                     Administration’s (SSA) plan to transfer Administrative Law Judge
                                     hearings to HHS.24 25 GAO found that the plan generally fulfilled all of
                                     the elements mandated by the MMA, such as a timetable, cost
                                     projections, and information about the development of a case-tracking
                                     system. However, the plan omitted important information, such as
                                     specific transition milestones and contingency arrangements. GAO
                                     recommended that HHS and SSA address these deficiencies. In its
                                     response, HHS generally agreed with GAO’s recommendations.

                                     In addition, OIG is currently reviewing the use of telephone, video, and
                                     in-person conferences to conduct Medicare Administrative Law Judge
                                     hearings.


                                     METHODOLOGY
                                     This study examines QICs’ performance in processing reconsiderations.
                                     Specifically, we determined whether QICs:
                                     •	      adjudicated reconsiderations within 60 days from the date of
                                             appeal requests by reviewing appeals system data for all
                                             reconsiderations opened from May 2005 to July 2006 for Medicare
                                             Part A cases and from January to July 2006 for Medicare Part B
                                             cases;26



                                     23 OIG, “Medicare Administrative Appeals: The Potential Impact of BIPA,”
                                     OEI-04-01-00290, January 2002. 

                                     24 Section 931 of the MMA required the transfer of the Medicare Administrative Law Judge 

                                     hearing process from SSA to HHS.

                                     25 GAO, “Medicare: Incomplete Plan to Transfer Appeals Work Load from SSA to HHS
                                     Threatens Services to Appellants,” GAO-05-45 (Washington, DC: October 4, 2004).
                                     26 We used July 2006 as a cutoff to ensure that (1) QICs had at least 60 days to process a
                                     given reconsideration and (2) the administrative QIC, which houses reconsideration case
                                     files after disposition, had sufficient time to collect and submit requested case files.



OEI-06-06-00500   E A R LY I M P L E M E N TAT I O N R E V I E W   OF   QUALIFIED INDEPENDENT CONTRACTOR PROCESSING   OF   R E C O N S I D E R AT I O N S   6
    I N T R O D                   U C T                I O N


                                     •	      provided required case correspondence to appellants, based on our
                                             analysis of a random sample of reconsiderations adjudicated
                                             during the study period; and
                                     •	      entered accurate reconsideration information into the appeals
                                             system for five key data elements, based on our analysis of a
                                             random sample of reconsiderations adjudicated during the study
                                             period.
                                     Analysis of Appeals System Data
                                     Through CMS and the administrative QIC, we obtained data from the
                                     appeals system for all reconsideration requests initiated from
                                     May 2005 to July 2006. We analyzed these data to determine the:
                                     •	      timeliness of QICs’ processing of reconsiderations;

                                     •	      characteristics associated with late reconsiderations, i.e., the
                                             number of days that the reconsiderations were late and the
                                             number of days associated with case file transfers from the
                                             Affiliated Contractors that handle redetermination appeals at
                                             Level One;
                                     •	      number of reconsideration requests received by each QIC; and

                                     •	      number of claims associated with reconsiderations.

                                     Case File Reviews
                                     From appeals system data, we identified all reconsiderations that were
                                     labeled as “closed” by the four QICs during the study period.27 From
                                     this population, we selected a random sample of 110 cases from each
                                     QIC, for a total of 440 cases. We then contacted the administrative




                                     27 We defined “closed cases” as reconsideration cases in our specified sample timeframe that
                                     have dismissed, favorable, partially favorable, or unfavorable decision findings in the
                                     appeals system.



OEI-06-06-00500   E A R LY I M P L E M E N TAT I O N R E V I E W   OF   QUALIFIED INDEPENDENT CONTRACTOR PROCESSING   OF   R E C O N S I D E R AT I O N S   7
    I N T R O D                   U C T                I O N


                                     QIC and requested the corresponding case files for each sample case.
                                     We received a total of 423 case files.28 29
                                     We reviewed case file documentation to confirm whether QICs
                                     processed reconsiderations on time by determining the number of days
                                     between the date of receipt of the reconsideration request and the date
                                     of the reconsideration decision letter. We also reviewed case files to
                                     determine whether documents showed that required correspondence,
                                     i.e., acknowledgment and decision letters and written notifications of
                                     processing delay (where appropriate), were sent on time. We labeled
                                     correspondence as “missing” if the case file did not contain supporting
                                     documentation.
                                     We also compared the information contained in the case files with data
                                     contained in the appeals system to determine the accuracy of data
                                     entered for five key elements. We considered appeals system data to be
                                     inaccurate when it differed from information contained in the case files.
                                     Specifically, we examined whether the appeals system accurately
                                     reflected the:
                                     • appellant type;

                                     • date of receipt of the reconsideration request;

                                     • date of acknowledgment letter;

                                     • date of decision letter; and

                                     • reconsideration decision, e.g., dismissed, favorable, partially
                                         favorable, or unfavorable.

                                     Confidence intervals for estimates contained in this report are listed
                                     in Appendix A.

                                     28 The administrative QIC was unable to locate 2 files for FCSO, 1 file for Maximus, 10 files
                                     for Q2A East, and 3 files for Q2A West. The administrative QIC reported that QICs do not
                                     develop case files under two circumstances: (1) if the QIC establishes that the appeal is
                                     outside of its jurisdiction, it records the disposition as “misrouted” in the appeals system
                                     and forwards the request and associated materials to the QIC with jurisdiction; and (2) if a
                                     MAC redetermination appeal has not been conducted, the QIC records the disposition as
                                     “dismissed” in the appeals system. In both circumstances, the QIC develops an appeals
                                     system record, but no case file.
                                     29 One of FCSO’s cases was an expedited appeal, which OIG did not include in the
                                     423 cases it reviewed. OIG had asked the administrative QIC to exclude all Part A
                                     expedited cases. According to the administrative QIC, the expedited case was not labeled
                                     appropriately in the appeals system, which explains its inclusion in our universe of cases.
                                     Our review does not include Part A expedited reconsiderations because adjudication
                                     procedures differ from those of standard Part A and Part B cases.



OEI-06-06-00500   E A R LY I M P L E M E N TAT I O N R E V I E W   OF   QUALIFIED INDEPENDENT CONTRACTOR PROCESSING   OF   R E C O N S I D E R AT I O N S   8
    I N T R O D                   U C T                I O N


                                     Structured Interviews With QIC Staff
                                     We conducted structured interviews with QIC staff at FCSO, Maximus,
                                     and Q2A East. During these interviews, we spoke with managers,
                                     adjudication staff, and staff responsible for entering information into
                                     the appeals system. We also conducted a structured interview with
                                     management staff at Q2A West. We asked about the four QICs’
                                     protocols for adjudicating reconsiderations and challenges that they
                                     experienced with the reconsideration process.
                                     Structured Interviews With Administrative Law Judge Staff
                                     We conducted structured interviews with Administrative Law Judge
                                     teams in each of the four hearing offices within HHS’s Office of
                                     Medicare Hearings and Appeals.30 Each Administrative Law Judge
                                     team included the primary docket clerk, one attorney, and one
                                     Administrative Law Judge. We asked Administrative Law Judge teams
                                     about their experiences in working with QICs, particularly as they
                                     related to the accuracy of the appeals system data entered by QICs.
                                     Structured Interviews With CMS Staff
                                     We conducted structured interviews with representatives from CMS’s
                                     Medicare Enrollment and Appeals Group. We asked about the
                                     mechanisms that CMS uses to ensure QIC adherence to program
                                     requirements.
                                     Quality Standards
                                     This study was conducted in accordance with the “Quality Standards for
                                     Inspections” issued by the President’s Council on Integrity and
                                     Efficiency and the Executive Council on Integrity and Efficiency.




                                     30 The Office of Medicare Hearings and Appeals is responsible for overseeing the
                                     Administrative Law Judge hearing level process. During a hearing, an Administrative Law
                                     Judge conducts a new (“de novo”) review of an appellant’s case and issues a decision based
                                     on the facts and the law. The Chief Administrative Law Judge leads the agency, which
                                     consists of four hearings offices, located in Arlington, Virginia; Cleveland, Ohio; Irvine,
                                     California; and Miami, Florida.



OEI-06-06-00500   E A R LY I M P L E M E N TAT I O N R E V I E W   OF   QUALIFIED INDEPENDENT CONTRACTOR PROCESSING   OF   R E C O N S I D E R AT I O N S   9
  Δ         F I N D I N G S

    Part A Qualified Independent Contractors met                          Based on our analysis of the
      the 60-day processing timeframe; however,                           appeals system data for all
      Part B contractors did not for 58 percent of                        reconsiderations received from
                                reconsiderations                          May 2005 to July 2006, both Part A
                                                                          QICs processed virtually all
                                     reconsiderations within 60 days, as required (see Table 1).31 However,
                                     Part B QICs did not meet timeframes for 58 percent of reconsiderations.
                                     Specifically, Q2A West did not process 74 percent of reconsiderations
                                     within 60 days and Q2A East did not process 40 percent of
                                     reconsiderations within 60 days. Of these late decisions, Q2A West’s
                                     reconsiderations averaged 56 days late and Q2A East’s averaged
                                     21 days late. Our review of paper case files associated with a random
                                     sample of reconsiderations corroborated timeliness findings from our
                                     appeals system analysis.



                     Table 1: Timeliness of Medicare Reconsideration Appeals Processed by
                     Qualified Independent Contractors

                                                                                              Part A QICs                        Part B QICs
                                                                                               N=28,035                           N=77,973

                    Cases Not Meeting 60-Day Timeframes                                          < 1%                                  58%
                                                                                           FCSO         Maximus        Q2A East                  Q2A West
                                                                                          N=9,195       N=18,840       N=36,842                  N=41,131

                    Cases Not Meeting 60-Day Timeframes                                     < 1%            < 1%                40%                         74%

                    Cases Open More Than 90 Days                                              0%             0%                 12%                         39%

                    Average No. of Days Late                                                    0              0                   21                        56
                  Source: OIG analysis of Medicare Appeals System data: Part A, May 2005–July 2006 and Part B,
                  January–July 2006.



                                     To address the Part B QICs’ performance issues, CMS took two key
                                     actions. It placed both Part B QICs on improvement plans. For
                                     FY 2007, CMS also restructured the Part B workload into three
                                     jurisdictions and recompeted the contracts among all QICs. Although
                                     Q2A West was not awarded a contract to conduct new appeals, CMS did
                                     extend its existing contract to handle approximately

                                     31 In our timeliness calculations, we took into account reconsideration extensions permitted
                                     under 42 CFR § 405.970(b).



OEI-06-06-00500   E A R LY I M P L E M E N TAT I O N R E V I E W   OF   QUALIFIED INDEPENDENT CONTRACTOR PROCESSING   OF   R E C O N S I D E R AT I O N S     10
    F   I N D I N G                    S


                                     26,000 reconsiderations that were pending decisions. According to CMS
                                     officials, these reconsiderations were all completed by September 2007.

        Qualified Independent Contractors did not                          Case correspondence, such as
        meet all correspondence requirements but                           acknowledgment letters, late
                                                                           notices, and decision letters, serve
            did include the appropriate content in
                                                                           as important case updates and
                   reconsideration decision letters
                                                                           notifications of appeal rights.
                                     Documents contained in case files do not substantiate that the four
                                     QICs sent all required correspondence, and some correspondence was
                                     not sent within required timeframes. QICs did, however, include all
                                     required content in decision letters.
                                     Acknowledgment letters. Twenty-six percent of QIC case files we
                                     reviewed were missing letters acknowledging appellants’
                                     reconsideration requests, and 20 percent of case files showed that these
                                     letters were sent after 14 days from the dates of receipt of the
                                     reconsideration requests. (See Table 2 on the next page.) The
                                     percentage of case files missing acknowledgment letters ranged from a
                                     low of 16 percent for Q2A West to a high of 37 percent for Maximus.
                                     Additionally, three QICs sent acknowledgment letters after required
                                     timeframes, ranging from a low of 8 percent of reconsiderations for
                                     Q2A East to a high of 37 percent for Q2A West.

                                     Reconsideration decision letters. Twelve percent of QIC case files were
                                     missing reconsideration decision letters, ranging from a low of 7 percent
                                     of reconsiderations for Q2A East to a high of 16 percent for Maximus.
                                     However, when present, QICs’ decision letters contained all required
                                     content, including the reconsideration decision; a summary of the facts
                                     in the case; an explanation of how pertinent laws, regulations, coverage
                                     rules, and CMS policies apply to the facts of the case; and the
                                     appellant’s right to an Administrative Law Judge hearing.

                                     Written notification of processing delay and the right to escalate. For late
                                     Part B reconsiderations, 40 percent of case files were missing
                                     documentation substantiating that the Part B QICs sent notifications of
                                     processing delays to appellants by the 60th day following the receipt of
                                     their reconsideration requests, as required. Another 37 percent of case
                                     files for late Part B reconsiderations show that these notifications were
                                     sent after 60 days. Such notifications serve to make appellants aware of
                                     their right to escalate their cases to the Administrative Law Judge
                                     hearing level.



OEI-06-06-00500   E A R LY I M P L E M E N TAT I O N R E V I E W   OF   QUALIFIED INDEPENDENT CONTRACTOR PROCESSING   OF   R E C O N S I D E R AT I O N S   11
    F   I N D I N G                      S            





          Table 2: Missing or Untimely Correspondence for Medicare Reconsideration Appeals
          Processed by Qualified Independent Contractors

                                                                               Overall            Part A QICs                         Part B QICs


                                                                                             FCSO         Maximus            Q2A East                Q2A West

          Acknowledgment Letters

            Missing Documentation                                                  26%           26%            37%                  33%                      16%

             Letters Sent After Required Timeframe                                 20%            0%            16%                    8%                     37%

          Reconsideration Decision Letters

            Missing Documentation                                                  12%           10%            16%                    7%                     14%

          Written Notification of Processing
          Delay and the Right to Escalate

            Missing Documentation                                                  40%            N/A           N/A*                 46%                      37%

            Notifications Sent After Required
            Timeframe                                                              37%            N/A           N/A                  23%                      43%
          Source: OIG review of 423 Medicare reconsideration appeals case files: Part A, May 2005–July 2006 and Part B,

          January–July 2006. 

          *Maximus was missing documentation substantiating that it sent written notifications of processing delay to appellants for its two late

          decisions. However, because so few decisions were decided late, we were unable to report statistics for missing notifications of 

          processing delays with a reasonable level of confidence.




        Qualified Independent Contractors entered                           We reviewed a sample of paper case
         inaccurate information into the Medicare                           files to verify the accuracy of
                  Appeals System for 54 percent of                          information entered into the
                                 reconsiderations                           appeals system by each QIC. We
                                                                            found that, for the five items we
                                       reviewed, QICs entered inaccurate information in the appeals system
                                       for 54 percent of reconsiderations.32 (See Table 3 on the next page.)
                                       The five items we reviewed were: appellant type; date of receipt of the
                                       reconsideration request; acknowledgment letter date; decision date; and



                                       32 As stated previously, we analyzed appeals system data to determine whether QICs
                                       processed reconsiderations within 60 days. Although we found that QICs entered
                                       inaccurate information in the appeals system for the five items identified in this report, we
                                       were able to corroborate our findings regarding timeliness through the review of paper case
                                       files associated with a random sample of reconsiderations.



OEI-06-06-00500     E A R LY I M P L E M E N TAT I O N R E V I E W   OF   QUALIFIED INDEPENDENT CONTRACTOR PROCESSING   OF   R E C O N S I D E R AT I O N S    12
       F   I N D I N G                         S

                                       decision type, i.e., dismissed, partially favorable, favorable, or
                                       unfavorable.


        Table 3: Percentage of Inaccuracies in Medicare Appeals System Data for
        Reconsideration Appeals Processed by Qualified Independent Contractors

        Information Reviewed                                               Overall           FCSO         Maximus            Q2A East                 Q2A West
        Percentage of Cases With Any
        Incorrect Information                                                 54%             15%              43%                   60%                      62%

        Appellant Type, e.g., Beneficiary,
        Provider                                                              11%              5%             14%                     6%                      16%

        Reconsideration Request Date                                           3%              2%               5%                    4%                      1%

        Acknowledgment Letter Date                                            18%              0%             28%                     7%                      27%

        Decision Date                                                         33%              8%               6%                  49%                       38%

        Decision, e.g., Dismissed,
        Favorable, Partially Favorable,
        Unfavorable                                                            3%              1%               4%                    1%                      4%
        Source: OIG review of 423 reconsideration case files: Part A, May 2005–July 2006 and Part B,
        January–July 2006.




                                       Specifically, we found that 11 percent of reconsiderations had the
                                       incorrect appellant types,33 3 percent had incorrect reconsideration
                                       request dates, 18 percent had incorrect acknowledgment letter dates,
                                       33 percent had incorrect decision dates, and 3 percent had the incorrect
                                       decision type.

                                       Administrative Law Judge teams reported that reconsideration
                                       information entered by QICs is often inaccurate or missing.
                                       Specifically, Administrative Law Judges cited incorrect health
                                       insurance claim numbers, missing dates of service, inaccurate claims
                                       information, and incorrect appellant types. Administrative Law Judges
                                       reported that they rely entirely on paper case files to conduct hearings,
                                       in part because they presume that the data contained in the appeals
                                       system are unreliable.




                                       33 The appellant-type designation is important because it may affect adjudication
                                       procedures. For example, QICs have special requirements for the content and the
                                       complexity of the language used in decision letters sent to beneficiary appellants.



OEI-06-06-00500     E A R LY I M P L E M E N TAT I O N R E V I E W   OF   QUALIFIED INDEPENDENT CONTRACTOR PROCESSING   OF   R E C O N S I D E R AT I O N S    13
F   I N D I N G                S            




             Factors contributing to deficiencies in                        Based on data obtained through
       timeliness, correspondence, and data entry                           structured interviews with QICs
                                                                            and our analysis of appeals system
    include case transfer delays, unexpected case
                                                                            data, we identified three factors
          volume, and appeals system challenges
                                                                            that contributed to processing
                                     deficiencies. These include delays in case file transfers from the
                                     Affiliated Contractors to QICs, a large and unexpected Part B
                                     reconsideration case volume, and functionality challenges with the
                                     appeals system. As discussed below, CMS took steps to address some of
                                     these issues.
                                     Case transfer delays
                                     Three of the four QICs reported that lags in case file transfers from
                                     Affiliated Contractors at Level One affected reconsideration
                                     adjudication timeframes and their ability to complete other activities,
                                     such as entering data into the appeals system and reviewing case
                                     information to reach decisions. According to appeals system data, QICs
                                     received redetermination paper case files an average of 14 days after
                                     QICs’ requests. These case file transfers occur within QICs’ 60-day
                                     adjudication timeframe, meaning that delays in case transfers reduce
                                     the amount of time that QICs have to process reconsiderations. Indeed,
                                     appeals system data show that for 15 percent of late reconsideration
                                     decisions, QICs received case files after 30 days from the date of the
                                     request, leaving only 30 days to process reconsiderations.
                                     Part B case volume
                                     Part B QIC officials cited unexpected case volume as the primary reason
                                     for their inability to process cases on time. Our analysis confirmed that
                                     as of July 2007, Part B QICs had received about 20 percent more cases
                                     than the assumptions identified in their contracts with CMS.34 35
                                     Beyond timeliness effects, Part B QIC officials also reported that case
                                     volume prompted them to reassign quality review staff to process

                                     34 Case volume estimates were based on Q2A East and Q2A West Business Proposals, dated
                                     December 8, 2005.
                                     35 Representatives from CMS and the Part B QICs reported that underestimated case
                                     volume may be explained, in part, by CMS’s assumption that provider appellants would
                                     aggregate approximately five claims under one appeal. If multiple claims were aggregated
                                     under one appeal, QICs could gain efficiencies by producing fewer letters and entering less
                                     overall data into the appeals system. However, according to appeals system data, Part B
                                     reconsiderations involved an average of only 1.3 claims rather than the estimated five
                                     claims. CMS officials indicated that case volume assumptions were based on historical
                                     information from the former hearing officer level of appeals, which handled the second level
                                     of Part B administrative appeals prior to the implementation of BIPA.



OEI-06-06-00500   E A R LY I M P L E M E N TAT I O N R E V I E W   OF   QUALIFIED INDEPENDENT CONTRACTOR PROCESSING   OF   R E C O N S I D E R AT I O N S   14
    F   I N D I N G                    S


                                     incoming reconsideration requests and to adjudicate cases, and
                                     prevented support staff from entering required data into the appeals
                                     system. CMS officials reported that case volume estimates were
                                     adjusted for FY 2007.
                                     Medicare appeals system challenges
                                     All QICs reported that challenges related to the appeals system affected
                                     timeliness and overall workflow during the initial months of operation.
                                     Specifically, the appeals system was frequently unavailable or slow, did
                                     not have the ability to generate appellant correspondence, and/or did
                                     not support resource management activities. Further, the appeals
                                     system did not interface with databases that contained claims
                                     information. Consequently, QIC staff needed to manually enter
                                     claim-specific information, which was prone to human error. According
                                     to all four QICs, these appeals system issues prompted them to develop
                                     ancillary systems to generate letters, support workflow management,
                                     and gather claims data. CMS worked with CGI Federal to address
                                     these issues. However, as of December 2007, the appeals system was
                                     still not capable of interfacing with Medicare claims systems, which
                                     each of QICs report as essential to ensure that claim-level information
                                     is valid for a given reconsideration.




OEI-06-06-00500   E A R LY I M P L E M E N TAT I O N R E V I E W   OF   QUALIFIED INDEPENDENT CONTRACTOR PROCESSING   OF   R E C O N S I D E R AT I O N S   15
    F   I N D I N G                    S
  Δ         R E C O M M E N D A T I O N




                                     During our review, the Part A QICs had been processing
                                     reconsiderations for 15 months and the Part B QICs for 7 months. We
                                     found that, during this time, two QICs were not processing the majority
                                     of their Part B reconsiderations within 60 days, case files did not
                                     substantiate that QICs sent correspondence to appellants for all
                                     reconsiderations, and data entered by QICs in the appeals system were
                                     inaccurate. CMS made several changes to improve the reconsiderations
                                     process, including facilitating some improvements in the appeals
                                     system, restructuring the Part B workload into three jurisdictions, and
                                     recompeting the contracts among all QICs. Although these actions may
                                     have improved some areas of reconsiderations processing, given the
                                     deficiencies cited in this report and the potential impact of these
                                     deficiencies on the overall Medicare appeals process, we recommend
                                     that CMS:
                                     Take Further Action To Ensure That QICs Meet Timeliness,
                                     Correspondence, and Data Entry Requirements
                                     CMS currently employs several mechanisms to monitor QICs, which
                                     include weekly reviews of the appeals system data and annual site visit
                                     reviews. CMS may consider several options for augmenting these
                                     mechanisms to ensure that QICs meet Federal requirements for
                                     processing reconsiderations. For example, CMS could add metrics, such
                                     as error rates, to its annual reviews to further assess the extent to
                                     which QICs meet correspondence and data entry requirements. In
                                     addition, to better ensure that appeals system data are accurate, CMS
                                     could validate these data during annual reviews. CMS could also
                                     evaluate the costs and feasibility of enabling the appeals system to
                                     extract information from databases that contain claims data, thereby
                                     reducing the need for manual data entry. Lastly, CMS could monitor
                                     the length of time that it takes Affiliated Contractors to transfer paper
                                     case files to QICs, to better ensure that QICs have a reasonable number
                                     of days to adjudicate reconsiderations.


                                     AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                                     RESPONSE
                                     CMS concurred with our recommendation to take further action to
                                     ensure that QICs meet timeliness, correspondence, and data entry



OEI-06-06-00500   E A R LY I M P L E M E N TAT I O N R E V I E W   OF   QUALIFIED INDEPENDENT CONTRACTOR PROCESSING   OF   R E C O N S I D E R AT I O N S   16
R   E C O         M M E N D A T                                    I O N


                                     requirements and outlined efforts it has planned or has already taken to
                                     address it.

                                     In response to our suggestion to consider adding metrics to its annual
                                     performance evaluations, CMS responded that, during annual
                                     evaluations of each QIC, it reviews a sample of case files to determine a
                                     percentage of “inaccurate decisions.” The percentage of inaccurate
                                     decisions found during the review is then used to determine whether the
                                     QIC is eligible for a portion of the contract award fee. However, we
                                     noted that performance evaluation review reports supplied by CMS did
                                     not contain errors specific to correspondence and data entry
                                     requirements. Given the extent to which we found problems in these
                                     areas, we continue to recommend that CMS may consider adding
                                     metrics to gauge QICs’ performance related to correspondence and
                                     appeals system data entry. Further, CMS reported that it augmented
                                     its review of QICs by awarding a contract to a private entity that will
                                     conduct its own performance evaluation to determine QICs’ adherence
                                     to Federal requirements. To better ensure that appeals system data are
                                     accurate, the contractor will also validate the accuracy of appeals
                                     system data for the cases it selects, according to CMS.

                                     In response to our suggestion that CMS work toward enabling the
                                     appeals system to extract information from databases that contain
                                     claims data, CMS reported that it has developed such an interface. This
                                     system change is scheduled to be implemented in July 2008.

                                     In response to our suggestion that CMS monitor the length of time it
                                     takes affiliated contractors to transfer paper case files to QICs, CMS
                                     stated that it is reviewing weekly and/or monthly reports on transfer
                                     timeliness, and uses this information as part of the affiliated
                                     contractors’ annual performance evaluation. CMS reported that, as of
                                     May 2008, most affiliated contractors were meeting established
                                     timeliness standards for forwarding case files. Looking forward, CMS
                                     indicated that it included financial incentives in its contracts with the
                                     new MACs to forward case files to QICs within 4 days for 85 percent of
                                     cases.

                                     Finally, CMS noted that, subsequent to the time period covered by our
                                     review, March 2005–July 2006, it has made several changes to the
                                     second level of Medicare appeals, which culminated in the award of
                                     three new Part B QIC contracts. CMS reported that all three Part B
                                     QICs completed over 98 percent of reconsiderations on a timely basis
                                     during October 2007–March 2008. Although OIG has not independently

OEI-06-06-00500   E A R LY I M P L E M E N TAT I O N R E V I E W   OF   QUALIFIED INDEPENDENT CONTRACTOR PROCESSING   OF   R E C O N S I D E R AT I O N S   17
   R   E C O        M M E N D A T                                       I O N

                                     verified the supporting data, we have included a table that CMS
                                     provided, which outlines timeliness information for all three Part B
                                     QICs as part of the agency’s comments.

                                     The full text of CMS’s comments is provided in Appendix B.




OEI-06-06-00500   E A R LY I M P L E M E N TAT I O N R E V I E W   OF   QUALIFIED INDEPENDENT CONTRACTOR PROCESSING   OF   R E C O N S I D E R AT I O N S   18
   Δ            A P P E N D I X ~ A

                                           Point Estimates and Confidence Intervals


Table 1: Missing or Untimely Correspondence for Medicare Reconsideration Appeals
Processed by Qualified Independent Contractors


                                                                                                                                              95-Percent
Estimate Description                                                                              N                   Estimate        Confidence Interval

Overall Percentage of Case Files Missing
Acknowledgment Letters                                                                          423                     26.3%                        21.8–30.8%

Overall Percentage of Acknowledgment Letters Sent
Late                                                                                            423                     20.0%                        15.7–24.2%

Overall Percentage of Case Files Missing Decision
Letters                                                                                         423                     11.7%                          8.3–15.0%

Overall Percentage of Case Files Missing Written
Notifications of Processing Delays                                                              115                     39.7%                        30.7–48.9%

Overall Percentage of Written Notifications of
Processing Delays Sent Late                                                                     115                     37.0%                        28.0–45.5%
Source: Office of Inspector General (OIG) review of 423 reconsideration case files: Part A, May 2005–July 2006 and Part B, January–July 2006.




 Table 2: Estimate of Missing or Untimely Correspondence by Part A Qualified Independent
 Contractors

                                                                                            First Coast                              Maximus
                                                                                               N=107                                    N=109

                                                                                                       95-Percent                                    95-Percent
                                                                                                       Confidence                                    Confidence
Estimate Description                                                                Estimate              Interval        Estimate                      Interval



Missing Acknowledgment Letters                                                        26.2%            17.8–34.6%           36.7%                   27.5–45.9%


Acknowledgment Letters Sent After 14 Days
                                                                                        N/A                    N/A          15.6%                     8.7–22.5%

Missing Decision Letters                                                              10.3%               4.5–16.1%         15.6%                     8.7–22.5%
Source: OIG analysis of 423 Medicare reconsideration appeals case files: Part A, May 2005–July 2006.




 OEI-06-06-00500        E A R LY I M P L E M E N TAT I O N R E V I E W   OF   QUALIFIED INDEPENDENT CONTRACTOR PROCESSING    OF   R E C O N S I D E R AT I O N S   19
     A    P    P E N D                 I X ~              A             



Table 3: Estimate of Missing or Untimely Correspondence by Part B Qualified Independent
Contractors

                                                                                             Q2A East                            Q2A West
                                                                                              N=100                                  N=107

                                                                                                        95-Percent                                95-Percent
                                                                                                        Confidence                                Confidence
Estimate Description                                                              Estimate                 Interval     Estimate                     Interval



Missing Acknowledgment Letters                                                      33.0%             23.6–42.4%          15.9%                    8.9–22.9%



Acknowledgment Letters Sent After 14 Days                                             8.0%              2.7–13.3%         36.5%                  27.4–45.6%

Missing Decision Letters                                                              7.0%              1.9–12.1%         14.0%                    7.3–20.7%

                                                                                              N=39                                    N=76

Missing Documentation of Notifications of Processing                                46.2%             30.6–61.8%          36.8%                  25.9–47.7%
Delay
Notifications of Processing Delay Sent After Required                               23.1%               9.9–36.3%         43.4%                     32.3–54.5
Timeframe
Source: OIG analysis of 423 Medicare reconsideration appeals case files: Part B, January–July 2006.




Table 4: Estimate of Inaccuracies in Medicare Appeals System Data for
Reconsideration Appeals Processed by Qualified Independent Contractors

                                                                                                                N=423

                                                                                                                                           95-Percent
Estimate Description                                                                                      Estimate                 Confidence Interval

Overall Percentage of Cases With Any Incorrect
Information                                                                                                  53.6%                                48.4–58.8%

Overall Appellant Type Inaccuracies                                                                          11.2%                                  7.8–14.6%

Overall Reconsideration Request Date Inaccuracies                                                             2.7%                                    1.0–4.4%

Overall Acknowledgment Letter Date Inaccuracies                                                              18.1%                                14.1–22.2%

Overall Decision Date Inaccuracies                                                                           33.0%                                28.1–38.1%

Overall Decision Inaccuracies, e.g., Dismissed,
Favorable, Partially Favorable, Unfavorable                                                                   2.6%                                    0.9–4.3%
Source: OIG review of 423 reconsideration case files: Part A, May 2005–July 2006 and Part B, January–July 2006.




OEI-06-06-00500       E A R LY I M P L E M E N TAT I O N R E V I E W   OF   QUALIFIED INDEPENDENT CONTRACTOR PROCESSING   OF   R E C O N S I D E R AT I O N S   20
     A    P    P E N D                  I X ~              A             





, Part Qualified

Table 5: Estimate of Inaccuracies in Medicare Appeals System Data for
Reconsideration Appeals Processed by Part A Qualified Independent Contractors

                                                                                           First Coast                             Maximus
                                                                                               N=107                                  N=109

                                                                                                         95-Percent                               95-Percent
                                                                                                         Confidence                               Confidence
Estimate Description                                                               Estimate                 Interval   Estimate                      Interval

Percentage of Cases With Any Incorrect Information                                   15.0%                8.1–21.8%        43.1%                   33.7–52.5%

Appellant Type, e.g., Beneficiary, Provider                                           4.7%                 0.6–8.7%        13.8%                     7.2–20.3%

Reconsideration Request Date                                                          1.9%             0.23–6.59%*          4.6%                       0.6–8.6%

Acknowledgment Letter Date Inaccuracies                                                 N/A                     N/A        27.5%                   19.0–36.0%

Decision Date Inaccuracies                                                            7.5%                2.4–12.5%        5.5%                        1.2–9.8%

Decision Inaccuracies, e.g., Dismissed, Favorable,
Partially Favorable, Unfavorable                                                      0.9%             0.02–5.10%*          3.7%                       0.1–7.2%
Source: OIG review of 423 reconsideration appeals case files: Part A, May 2005–July 2006.
*Confidence interval calculated with an exact method based on the binomial distribution.




Table 6: Estimate of Inaccuracies in Medicare Appeals System Data for
Reconsideration Appeals Processed by Part B Qualified Independent Contractors

                                                                                              Q2A East                             Q2A West
                                                                                               N=100                                  N=107

                                                                                                         95-Percent                               95-Percent
Estimate Description                                                                                     Confidence                               Confidence
                                                                                   Estimate                 Interval   Estimate                      Interval

Percentage of Cases With Any Incorrect Information                                   60.0%               50.2–69.8%        61.7%                   52.3–71.0%

Appellant-Type Inaccuracies                                                           6.0%                1.3–10.7%        15.9%                     8.9–22.9%

Reconsideration Request Date Inaccuracies                                             4.0%                 0.1–7.9%         0.9%           0.0002–0.051%*

Acknowledgment Letter Date Inaccuracies                                               7.0%                1.9–12.1%        27.1%                   18.6–35.7%

Decision Date Inaccuracies                                                           49.0%               39.0–59.0%        38.3%                   29.0–47.7%

Decision Inaccuracies, e.g., Dismissed, Favorable,
Partially Favorable, Unfavorable                                                      1.0%             0.02–5.45%*          3.7%                       0.1–7.4%
Source: OIG review of 423 reconsideration case files: Part B, January–July 2006.
*Confidence interval calculated with an exact method based on the binomial distribution.




OEI-06-06-00500        E A R LY I M P L E M E N TAT I O N R E V I E W   OF   QUALIFIED INDEPENDENT CONTRACTOR PROCESSING   OF   R E C O N S I D E R AT I O N S   21
  Δ         A P P E N D I X ~ B


            Agency Comments




OEI-06-06-00500   E A R LY I M P L E M E N TAT I O N R E V I E W   OF   QUALIFIED INDEPENDENT CONTRACTOR PROCESSING   OF   R E C O N S I D E R AT I O N S   22
    A   P   P E N D                I X ~              B




OEI-06-06-00500   E A R LY I M P L E M E N TAT I O N R E V I E W   OF   QUALIFIED INDEPENDENT CONTRACTOR PROCESSING   OF   R E C O N S I D E R AT I O N S   23
    A   P   P E N D                I X ~              B




OEI-06-06-00500   E A R LY I M P L E M E N TAT I O N R E V I E W   OF   QUALIFIED INDEPENDENT CONTRACTOR PROCESSING   OF   R E C O N S I D E R AT I O N S   24
    A   P   P E N D                I X ~              B




OEI-06-06-00500   E A R LY I M P L E M E N TAT I O N R E V I E W   OF   QUALIFIED INDEPENDENT CONTRACTOR PROCESSING   OF   R E C O N S I D E R AT I O N S   25
  Δ         A C K N O W L E D G M E N T S



                                     This report was prepared under the direction of Kevin K. Golladay,
                                     Regional Inspector General for Evaluation and Inspections in the Dallas
                                     regional office, and A. Blaine Collins, Deputy Regional Inspector
                                     General.

                                     Christi Macrina served as the team leader for this study. Other
                                     principal Office of Evaluation and Inspections staff from the Dallas
                                     regional office who contributed to the report include Susan C. Bowman
                                     and Anthony Guerrero-Soto; central office staff who contributed include
                                     Barbara Tedesco, Kevin Farber, and Scott Manley.




OEI-06-06-00500   E A R LY I M P L E M E N TAT I O N R E V I E W   OF   QUALIFIED INDEPENDENT CONTRACTOR PROCESSING   OF   R E C O N S I D E R AT I O N S   26
